      Department of Homeland Security




              Independent Auditors’ Report on
            U.S. Customs and Border Protection’s 

                FY 2011 Financial Statements 





OIG-12-65                                            March 2012

                                                            Office Q/lllspectQr Gel/era!

                                                            U.s. Depa rtment of Homeland &t: uri t)·
                                                            Washingto n. DC 20528




                                                            Homeland
                                                            Security
                                      MAR 27 lOll

                                         Preface

The Department of Homeland Security (DHS) Office of In spector General (OIG) was
estab li shed by the Homeland Secllrity Act of 2002 (Publ ic Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit , inspection, and
special reports prepared as part of our oversight responsibilities to promote econom y,
efficiency, and effecti veness within the Department.

The attached report presents the results of the U.S. Customs and Border Protection' s
(CSP) financial statement audits for fi scal year (FY) 2011 and FY 20 10. We contracted
wit h the independent publi c accounting finn KPMG LLP (KPMG) to perfonn the audits.
The contract required that KPMG perfonn its aud its accordi ng to generall y accepted
government auditing standards and gu idan ce from the Office of Management and Budget
and the Government Accountabi li ty Offi ce. KPMG concluded that CSP's consolidated
financ ial statements as of and for the years ended September 30, 20 II and 20 I 0, are
presented fairl y, in all material respects, in confonnity with U.S. generall y accepted
accounting principles. The FY 2011 independent auditors' report di scusses fo ur
significant deficiencies in internal control, one o f which is considered a material
weakness. KPMG is responsib le for the attached auditors ' report , and the conclusions
expressed in the report. We do not express op inions on CSP's fin ancial statements or
provide conclusions on compliance with laws and regulations.

The recommendations herein have been di scussed in draft with those responsible for
implementation. We trust this report wi ll result in more effecti ve, efficient, and
economical operations. We express our appreciation to all o f those who contributed to
the preparation of this report.

                                                   ~




                                   &       /~.)I
                                      nne L. Richards
                                                       fly

                                     Ass istant Inspector General for Audi ts
                                KPMG LLP
                                1676 International Drive
                                McLean, VA 22102




                                         Independent Auditors’ Report


Acting Inspector General
U.S. Department of Homeland Security:

Acting Commissioner
U.S. Customs and Border Protection:

We have audited the accompanying consolidated balance sheets of the U.S. Customs and Border Protection
(CBP), a Component of the U.S. Department of Homeland Security (DHS), as of September 30, 2011 and
2010, and the related consolidated statements of net cost, changes in net position, and custodial activity,
and combined statements of budgetary resources (hereinafter referred to as “consolidated financial
statements”) for the years then ended. The objective of our audits was to express an opinion on the fair
presentation of these consolidated financial statements. In connection with our fiscal year 2011 audit, we
also considered CBP’s internal control over financial reporting and tested CBP’s compliance with certain
provisions of applicable laws, regulations, and contracts that could have a direct and material effect on
these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that CBP’s consolidated
financial statements as of and for the years ended September 30, 2011 and 2010, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be a material weakness and other deficiencies that we consider to be significant
deficiencies, as defined in the Internal Control Over Financial Reporting section of this report, as follows:

        Material Weakness:
        A. Drawback of Duties, Taxes, and Fees

        Significant Deficiencies:
        B. Property, Plant, and Equipment
        C. Entry Process
                1. In-Bond Program
                2. Trade Compliance Measurement
                3. Bonded Warehouse and Foreign Trade Zones
        D. Information Technology

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

The following sections discuss our opinion on CBP’s consolidated financial statements; our consideration
of CBP’s internal control over financial reporting; our tests of CBP’s compliance with certain provisions of
applicable laws, regulations, and contracts; and management’s and our responsibilities.
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the U.S. Customs and Border
Protection, a Component of the U.S. Department of Homeland Security, as of September 30, 2011 and
2010, and the related consolidated statements of net cost, changes in net position, and custodial activity,
and the combined statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of CBP as of September 30, 2011 and 2010, and its net costs, changes in net
position, budgetary resources, and custodial activity for the years then ended, in conformity with U.S.
generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.

The information in the Commissioner’s Message, Performance Section, Message from the Chief Financial
Officer, Other Accompanying Information, and Acronyms as reflected in CBP’s Fiscal Year 2011
Performance and Accountability Report is presented for purposes of additional analysis, and is not required
as part of the consolidated financial statements. This information has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. However, in our fiscal year 2011 audit, we identified certain deficiencies in internal control
over financial reporting that we consider to be a material weakness and other deficiencies that we consider
to be significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiencies described in Exhibit I to be a material weakness.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies described in Exhibit II to be significant deficiencies.

Exhibit III presents the status of prior year significant deficiencies and the material weakness.

We noted certain additional matters that we will report to the management of CBP in a separate letter.




                                                       2

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

                                                 *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
applicable to CBP.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
consolidated financial statements of CBP based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
and perform the audits to obtain reasonable assurance about whether the consolidated financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of CBP’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•	    Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;

•	    Assessing the accounting principles used and significant estimates made by management; and

•	    Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2011 audit, we considered CBP’s internal control over financial
reporting by obtaining an understanding of CBP’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CBP’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of CBP’s internal
control over financial reporting. We did not test all controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether CBP’s fiscal year 2011 consolidated financial
statements are free of material misstatement, we performed tests of CBP’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,

                                                      3

and contracts applicable to CBP. However, providing an opinion on compliance with laws, regulations,
and contracts was not an objective of our audit and, accordingly, we do not express such an opinion.

                                  ______________________________

CBP’s response to the findings identified in our audit is presented in Management’s Response to the
Independent Auditors’ Report. We did not audit CBP’s response and, accordingly, we express no opinion
on it.

This report is intended solely for the information and use of CBP’s management, DHS’ management, the
DHS Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




January 27, 2012




                                                    4

                                                                                                EXHIBIT I


Material Weakness
A.	 Drawback of Duties, Taxes, and Fees
Background:
U.S. Customs and Border Protection (CBP) performs an important revenue collection function for the U.S.
Department of the Treasury. CBP collected approximately $33.9 billion in import duties, taxes, and fees in
fiscal year (FY) 2011 on merchandise arriving in the U.S. from foreign countries.
Drawback is a remittance, in whole or in part, of duties, taxes, or fees previously paid by an importer.
Drawback typically occurs when the imported goods, on which duties, taxes, or fees have been previously
paid, are subsequently exported from the United States or destroyed prior to entering the commerce of the
United States. Depending on the type of drawback claim, the claimant has up to eight years from the date
of importation to file for drawback.
The conditions cited below have existed for several years; however, since FY 2009 CBP’s planned
remediation for many of these conditions were tied to systems modernization through the Automated
Commercial Environment (ACE). In FY 2010, funding for the implementation of ACE was reduced, and a
systems solution is currently unfunded. During FY 2010 and continuing into FY 2011, CBP began an
effort to improve the drawback process as a whole and is currently reassessing the planned solutions to
conditions below.
Condition:
The following weaknesses related to internal control over drawback of duties, taxes, and fees paid by the
importer were identified:
 •	 CBP is unable to prevent, or detect and correct excessive drawback claims against an entry summary

    due to the inherent limitations of the Automated Commercial System (ACS) and the lack of controls 

    therein. An entry summary can comprise numerous line items; however, ACS does not have the 

    capability to compare, verify, and track essential information on drawback claims to the related 

    underlying consumption entries (UCEs), their individual line items, or export documentation upon 

    which the drawback claim was based.

 •	 Currently, the drawback module within ACS provides information to ensure that the total amount of all
    drawback claims against a given import entry does not exceed 100% of the total amount of duties,
    taxes, and fees collected, at the entry summary level. By law, the amount paid for drawback claims
    against a given import entry should not exceed 99% of the duties, taxes, and fees collected at the
    individual line item level and the entry summary level. In addition, export information is not linked to
    the drawback module and, therefore, electronic comparisons of export data cannot be performed within
    ACS to ensure that overpayments of drawback claims are not made.
•	 Drawback review policies did not require Drawback Specialists to review all, or a statistically valid
   sample, of prior drawback claims against a selected import entry to determine whether, in the
   aggregate, an excessive amount had been claimed against import entries. CBP utilizes a “validity tree”
   approach when selecting prior drawback claims for review. The validity tree approach requires CBP to
   review the largest prior related drawback claims; however, this approach is not statistical. In addition,
   drawback review policy and procedures allow Drawback Specialists, with supervisory approval, to
   judgmentally decrease the number of UCEs randomly selected for review, which decreases the review’s
   effectiveness. Further, CBP’s sampling methodology for selecting UCEs is not considered to be
   statistically valid and CBP’s Drawback Handbook does not include procedures for statistically
   projecting errors noted in the sample.


                                                    I.1

                                                                                                EXHIBIT I


•	 The statutory period for document retention related to a drawback claim is only three years from the
   date of payment. However, there are several situations that could extend the life of the drawback claim
   well beyond three years.
Cause/Effect:
Due to system functionality limitations, much of the drawback process is manual, placing an added burden
on limited resources. CBP uses a sampling approach to compare, verify, and match consumption entry and
export documentation to drawback claims submitted by importers. However, system and procedural
limitations decrease the effectiveness of this approach.
The inherent risk of fraudulent claims or claims made in error is high, which increases the risk of erroneous
payments. Since all, or a statistically valid sample, of the related drawback claims are not reviewed for a
selected import entry, the possibility exists that the related drawback claims, in aggregate, will exceed the
amount of duty and tax collected on the related import entry. In addition, the length of the drawback claim
lifecycle often extends beyond the document retention period, which is set by statute at three years after
payment of the claim.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Recommendations:
We recommend that CBP:
1.	 Continue to pursue alternative compensating controls and measures that may ultimately identify the
    potential revenue loss exposure to CBP, as the incorporation of drawback processing is not in the near-
    term schedule for ACE production. These alternative internal controls over drawback claims may
    result in the ability to compare, verify, and track essential information on drawback claims to the
    related UCEs and export documentation for which the drawback claim is based, and identify duplicate
    or excessive drawback claims;
2.	 Develop and implement automated controls to prevent overpayment of a drawback claim; and
3.	 Analyze current policies and procedures performed at the Drawback Centers, determine the
    cost/benefit of current procedures, and revise as necessary.
CBP Response:
See management’s response included in the attached letter.




                                                     I.2

                                                                                              EXHIBIT II


Other Significant Deficiencies
B.	 Property, Plant, and Equipment
Background:
U.S. Customs and Border Protection (CBP) has acquired substantial new technology, facilities, and other
assets in recent years through purchase and construction. CBP’s increased assets primarily include
construction of border fencing (both physical and virtual), purchase of inspection equipment at Ports of
Entry, and new construction at Port of Entry facilities.
Condition:
Several weaknesses were identified related to CBP’s accounting for property, plant, and equipment
(PP&E). Specifically, CBP:
•	 Did not have a fully implemented, documented, formal review process in place to determine if the
   Percentage of Completion (POC) amounts, reported by Project/Construction Managers, were correct
   and led to accurate financial reporting under U.S. generally accepted accounting principles as it
   related to construction prior to the second quarter of FY 2011. Therefore, CBP did not detect
   inaccurate POCs reported throughout the first quarter or obtain supporting documentation for the
   POCs submitted by the Project/Construction Managers. Once CBP issued formalized guidance in the
   second quarter, the POC amounts reported varied, including both increases and decreases, from the
   POC amounts reported in the first quarter of the FY. In addition, the POC amounts continued to vary
   from the second quarter to the third quarter as a result of additional changes made to the process.
   Furthermore, the formalized guidance did not provide instructions on how to calculate POCs for
   general funding projects and thus CBP did not record a POC for the six projects identified as general
   funding projects.
•	 Did not properly classify six American Recovery and Reinvestment Act projects. CBP recognized
   these projects as repairs and maintenance, which did not require a POC, when in fact the projects
   were ongoing leasehold improvements, which required a POC.
•	 Did not properly and timely record certain construction-in-progress (CIP) settlement transactions.
   Specifically, there were 73 instances in which assets were untimely moved from CIP to fixed assets,
   resulting in the misclassification of assets in the general ledger. These delays spanned from one to
   twenty-six months. As a result of these late settlements, depreciation for the assets was understated
   from the time the assets were placed in service to when the assets were settled. To correct total
   depreciation in the general ledger, CBP recorded an additional $30.9 million in accumulated
   depreciation and depreciation expense. In addition, 16 assets were identified in which CBP
   understated the value of its assets that were placed in service. CBP did not recognize the full value of
   the asset until further invoices were received. Furthermore, CBP settled a project to the incorrect
   general ledger account and settled four projects to the incorrect sub-asset number. A project was also
   capitalized when it should have been expensed and another settlement was recorded in duplicate.
   Lastly, CBP did not properly complete and review certain Technically Complete (TECO) forms,
   which indicate when a project has been completed and determines when the transaction to record the
   settlement should occur.
•	 Did not properly perform and/or document certain annual physical inventories related to real and
   personal property and did not detect assets incorrectly recorded, misclassified, or not recorded in the
   general ledger. In addition, the personal property inventory instructions did not provide sufficient
   detail for documenting the inventory results on the count sheets.



                                                    II.1

                                                                                               EXHIBIT II


•	 Recorded certain asset additions for an amount other than the amount paid, without proper supporting
   documentation, in an untimely manner, or used the incorrect general ledger account. Furthermore,
   the transactions performed to record the asset additions did not consistently comply with the United
   States Standard General Ledger at the transaction level.
•	 Did not properly input the correct capitalization date for 23 asset reclassifications, which in turn
   affected the corresponding accumulated depreciation balance.
•	 Improperly recorded certain asset retirements. Specifically, some assets that were retired were still in
   use, did not have proper approval and/or supporting documentation, or the transaction used to record
   the retirement included an incorrect general ledger account.
•	 Untimely recorded certain asset retirements and did not properly write-down the value of some assets
   that were no longer providing their expected services. Of the retirement transactions tested, one to
   thirty-four months lapsed between when an asset was physically removed from service and when it
   was retired from the system.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Cause/Effect:
CBP did not document and/or fully implement policies and procedures and does not have sufficient
oversight of its policies and procedures, to ensure that all PP&E transactions are recorded timely and
accurately. As a result, CBP’s CIP, PP&E, depreciation expense, and accumulated depreciation may be
misstated at any point during the FY by the recording of transactions, which are incorrect, unsupported, or
untimely.
Recommendations:
We recommend that CBP:
1.	 Ensure standard operating procedures are in place and used by all Facilities, Management and
    Engineering Program Management Offices to create construction projects and to determine accurate
    POCs for all capitalized projects;
2.	 Review current policies and procedures for the proper recordation of asset additions, transfers and 

    retirements with regard to asset valuations and depreciation;

3.	 Determine whether existing policies and procedures regarding purchase orders and goods receipt are
    sufficient, revise policies where necessary, and communicate policies and procedures to receivers of
    goods throughout CBP;
4.	 Establish and implement internal controls to ensure that timely and accurate transfer of completed 

    assets from CIP to final asset settlement occurs;

5.	 Revise the current TECO process to include detailed accountability of time gaps, identify and correct
    problem areas, and establish procedures and training materials to ensure that the timely and correct
    accounting of assets occurs;
6.	 Clearly define and communicate instructions regarding the requirements for the performance and 

    documentation of physical inventories; and

7.	 Request system changes, where possible, to require the submission of detailed supporting

    documentation, and to ensure the proper authorization for retirement has been obtained, prior to the 

    completion of the asset retirement transaction.



                                                    II.2

                                                                                             EXHIBIT II


C.	 Entry Process
       1. In-Bond Program
          Background:
          General In-Bond Process
          An in-bond entry allows the movement of cargo through the United States without payment of
          duty or appraisement prior to entry into domestic or foreign commerce. The cargo may enter
          commerce after it arrives at the destination port and an entry is filed. An in-bond also allows
          foreign merchandise arriving at one U.S. port to be transported through the U.S. for export
          from another U.S. port without the payment of duty. The shipment might not enter commerce
          if the shipment is entered into a Bonded Warehouse or admitted into a Foreign Trade Zone.
          Compliance Audit and In-Bond
          In 1998, CBP implemented an audit system within the Automated Commercial System (ACS) to
          serve as a compliance measurement system. This audit system, known as Tin-Man, utilizes
          random physical examinations and post audit reviews to ensure bonded carrier compliance with
          bond obligations. Tin-Man is used to select ports to perform physical examinations at the time
          of arrival and departure and to perform post audit reviews of carrier activity. Once each week,
          ports throughout the U.S. should be assigned post audits and physical examinations to perform
          based on a U.S. Government Accountability Office approved algorithm.
          In-Bond Shipments Overdue for Export (M02) Report
          In-bond shipments overdue for export are included on the M02 report. Items on this report are
          in-bond movements transmitted by importers or brokers via the Automated Manifest System
          (AMS), Automated Broker Interface, or paper that have not been exported within the required
          time limit. Review of the M02 report is designed to identify, but is not limited to, cargo that
          has not been exported and therefore may have physically, but not formally entered into U.S.
          commerce, administrative or clerical errors with paperwork, or system processing errors.
          Monthly List of In-Bond Shipments Overdue (M07) Report
          In-bond shipments overdue are included on the M07 report. Data on paperless and
          conventional in-bond movements transmitted by AMS participants, as well as in-bond
          information input via the “In-Bond Departure” function in ACS appear on this report. Review
          of the M07 report is designed to identify cargo that has not arrived at the original destination
          port of entry communicated to CBP.
          Condition:
          The following weaknesses were identified over the in-bond program:
          •	 Ports are required to submit a summary of post audits conducted and the associated results
             to Headquarters. However, due to a system limitation in ACS, Headquarters cannot run an
             oversight report to determine if ports have completed all required audits. The “In-Bond
             Exam/Audit Selection” report in ACS is designed to provide this function, but it currently
             does not accurately list the history of all in-bonds selected for audit and is not consistent
             with the listing of incomplete Tin-Man audits on the “In-Bond Exam Audit Table” report.
          •	 Headquarters completes a monthly analysis of the post audits and results submitted from
             the ports to determine the overall compliance rate of the in-bond program; however,
             documentation of this analysis is not maintained.


                                                  II.3

                                                                                    EXHIBIT II


  •	 The M02 report does not track air in-bonds.
  •	 The design of the M02 and M07 reports causes these monitoring reports to contain old and
     outdated information. Therefore, the ports have been instructed to focus on the most
     current issues and are not required to completely resolve all items on the M02 and M07
     reports. Thus, items on the reports may go unresolved.
  •	 Tin-Man is designed to assign both examinations of cargo and post audits on a weekly
     basis. The frequency of the current year examinations and audits is determined by an
     algorithm based on prior year results in Tin-Man. In FY 2010, Tin-Man was not reset by
     the Office of Information Technology at the beginning of the fiscal year for cargo
     examinations; therefore, no cargo examinations for the ports were generated by Tin-Man.
     As the current year frequency is based on prior year results, some ports did not receive any
     cargo examinations designated by Tin-Man in FY 2011.
  Criteria:
  Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
  Cause/Effect:
  A Headquarters memorandum to all field offices was issued in August 2011, indicating the
  retention guidelines for in-bond audits, in-bond examinations, the M02 report, and the M07
  report; however, not all ports were in compliance with the memorandum during FY 2011.
  Additionally, due to a flaw in the design of the M02 and M07 reports, there is no requirement
  for ports to completely resolve all items on the reports each time they are reviewed. The
  inability to effectively monitor the in-bond process and verify the arrival of in-bond
  merchandise at the port level could result in the loss of fines and penalty custodial revenue.
  Current ACS system limitations restrict the ability of CBP to accurately monitor the in-bond
  process, both at the Headquarters and port levels. The lack of an automatic compilation and
  analysis of audit results at the national level hampers CBP’s ability to ensure complete
  information is received from the ports to determine the effectiveness of in-bond audits and
  common in-bond errors.
  Recommendations:
  We recommend that CBP:
   1.	 Continue to monitor and review the Tin-Man audit results to ensure that the national in-
       bond compliance rate continues;
   2.	 Implement the “M1” release in the Automated Commercial Environment (ACE), which
       will replace the M02 and M07 reports, and continue to monitor the in-bond system
       through the new in-bond compliance system being developed in the Automated Targeting
       System (ATS); and
   3.	 Continue to provide outreach and guidance to the field as necessary.
2. Trade Compliance Measurement
  Background:
  Trade Compliance Measurement (TCM) provides key data to CBP for the management of risk
  associated with trade compliance and revenue collection. CBP utilizes TCM to measure the
  effectiveness of its control mechanisms deployed and its execution in collecting revenues


                                          II.4

                                                                                 EXHIBIT II


rightfully due to the U.S. Department of the Treasury. Further, TCM is used to determine the
revenue gap that is reported as “Other Accompanying Information” in the financial statements.
In February 2010, the targeting platform in ACS was replaced by ATS and the findings
platform was replaced by ACE. This change affected all future entries, whether filed in ACE
or ACS. All determinations from entry summary reviews are recorded in the Validation
Activity (VA) tool in ACE.
Condition:
Improvements over the TCM process were observed in FY 2011; however, the following
weaknesses related to TCM were identified:
•	 TCM Coordinators inconsistently use data queries and reports to monitor TCM as TCM
   Coordinators in the field stated that the ACE reporting functionality is not operating
   effectively. Instances were identified when the ACE reports listed entries with a VA that
   had already been closed and/or the reports would not list TCM hits with open VAs.
   Therefore, the TCM Coordinators did not have a standard functioning method of
   monitoring TCM.
•	 Ports did not fully understand the use of the ACE Inbox, which hosts TCM hits. Ports that
   generate more than 100 hits were not aware of the ACE Inbox functionality allowing users
   to view additional TCM hits needing attention.
•	 Headquarters provides the ports with a monthly database, which provides an effective tool
   to analyze and monitor TCM hits; however, the Headquarters Database for the FY 2011
   TCM hits was not made available to the ports until February 2011.
•	 CBP Directive 3550-074C, Uniform Input of Entry Summary Review Findings Using the
   ACE Validation Activity, issued March 18, 2011, does not provide sufficient information
   to the TCM Coordinators on how to appropriately review the ACE reports and the
   Headquarters Database. Details regarding the review, annotations, and maintenance of the
   reports were not provided.
 Criteria:
 Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
 Cause/Effect:
Incomplete guidelines and inconsistent use of the reporting tools to monitor TCM, may lead
ports to inadequately monitor the TCM process throughout the FY, resulting in a lack of
appropriate review of TCM entries. With inadequate oversight of the TCM data, CBP may
have an inaccurately projected revenue gap. Additionally, CBP may incorrectly evaluate the
effectiveness of its control environment over the collections of duties, taxes, and fees.
 Recommendations:
We recommend that CBP:
 1.	 Continue distribution of the monthly TCM database, which satisfies the requirements for
     TCM Coordinator and Headquarters oversight of the TCM process at the port level;
 2.	 Ensure ports are appropriately reviewing the ACE reports in accordance with CBP 

     Directive 3550-074C and issue new or updated guidance as needed; and




                                       II.5

                                                                                    EXHIBIT II

   3.	 Communicate, at least quarterly, current issues needing attention and resolutions in place
       to the ports.
3. Bonded Warehouse and Foreign Trade Zones
   Background:
   Bonded Warehouses (BWs) are facilities under CBP’s supervision used to store merchandise
   that has not made entry into the U.S. commerce. The merchandise stored in such warehouses
   is secured by the bond on the warehouse. Merchandise is entered into the BW by submission
   of the CBP Entry Summary Form 7501 and can be stored in the bonded facility for up to five
   years.
   Foreign Trade Zones (FTZs) are secure areas under CBP supervision considered outside of
   CBP territory. Authority for establishing these facilities is granted by the Foreign Trade
   Zones Board under the Foreign Trade Zones Act of 1934, as amended (19 United States Code
   (U.S.C.) 81a-81u). Foreign and domestic merchandise may be admitted into zones for
   operations not otherwise prohibited by law, including storage, exhibition, assembly,
   manufacturing, and processing. Merchandise is admitted into an FTZ using CBP Form 214.
   Condition:
   Improvements over the BW and FTZ processes were observed in FY 2011; however, the
   following internal control weaknesses were identified:
   •	 While CBP has developed national databases within ACE, which contain an inventory of
      all BWs and FTZs, CBP does not use the databases to document the assessed risk of each
      BW or FTZ, scheduled compliance reviews, or the results of compliance reviews.
      Although ACE is the system of record, CBP uses SharePoint to document the assessed
      risk of each BW or FTZ, scheduled compliance reviews, or the results of compliance
      reviews. In addition, CBP has not conducted a reconciliation of the Facilities
      Information Resource Management System codes within SharePoint due to known
      system issues. Furthermore, there are no requirements for Headquarters or the field
      offices to compare the ACE database to the compliance review schedules submitted by
      the ports to ensure that all compliance reviews are performed.
   •	 Headquarters compiles a survey that is completed by the ports at the end of each FY to
      determine the current status of the BW and FTZ programs. CBP performed an analysis
      over the FY 2011 survey results; however, the detailed analysis was not readily available
      and was unable to be provided. Additionally, the FY 2011 memo that Headquarters
      distributed to the ports with the intent to communicate the compliance results of the
      BW/FTZ programs did not contain detail of CBP’s internal analysis and results. The
      memo reiterated the responsibilities of the CBP Officers over the bonded facilities and
      commented on the external auditor’s results on the operating effectiveness of the
      program.
   Criteria:
   Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
   Cause/Effect:
   CBP does not have updated, formal guidance related to Headquarters’ monitoring of the BW
   and FTZ programs, including procedures to ensure all necessary compliance reviews are
   scheduled and completed.


                                          II.6

                                                                                                EXHIBIT II


             Headquarters cannot effectively monitor the BW and FTZ programs as there is no formal
             requirement for Headquarters to reconcile the database with the compliance reviews
             conducted.
             Recommendations:
             We recommend that CBP:
             1.	 Continue to monitor the compliance review results to ensure that the high national
                 compliance rate continues;
             2.	 Continue to review facility profiles in ACE to make sure that profiles are constantly
                 updated;
             3.	 Work within the constraints of the current fiscal parameters to develop additional training
                 and information sharing processes for the ports; and
             4.	 Continue to provide outreach and guidance to the field as necessary.
D. 	Information Technology
Background:
Controls over information technology (IT) and related financial systems are essential elements of
financial reporting integrity. Effective general controls in an IT and financial systems environment are
typically defined in five key control areas: security management, access control, configuration
management, segregation of duties and contingency planning. In addition to reliable controls, financial
management system functionality is important to program monitoring, increasing accountability of
financial and program managers, providing better information for decision-making, and increasing the
efficiency and effectiveness of services provided by the Federal government.
Condition:
During FY 2011, CBP took corrective action to address prior year IT control deficiencies. For example,
CBP made improvements over various system logical access processes and system security settings.
However, during FY 2011 new and continuing general IT control weaknesses were identified that could
potentially impact CBP’s financial data. The most significant weaknesses from a financial statement
audit perspective related to controls over access to programs and data. Collectively, the IT control
weaknesses limit CBP’s ability to ensure that critical financial and operational data is maintained in such
a manner to ensure confidentiality, integrity, and availability. Additionally, CBP’s current system of
record used to process entries imported into the U.S. cannot support all of CBP’s operations, which limits
CBP’s ability to effectively manage and monitor the custodial revenue and drawback processes. Because
of the sensitive nature of the issues identified, we will issue a separate restricted distribution report that
discusses the IT general control and functionality control deficiencies in more detail.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Cause/Effect:
Funding for IT development and implementation has been reduced in recent years, resulting in delays of
systems which would replace or enhance current systems. In addition, because of the presence of IT
control and financial system functionality weaknesses, there is added pressure on mitigating controls to
operate effectively.




                                                     II.7

                                                                                         EXHIBIT II


Recommendation:
We recommend that CBP improve the application and general controls over its financial systems to
ensure adequate security, protection, and functionality of the information systems.
CBP Response:
See management’s response included in the attached letter.




                                                  II.8

                                                                                                    Exhibit III


Status of Prior Year Material Weakness and Significant Deficiencies

                                            As Reported at
     Prior Year Condition                                                     Status as of September 30, 2011
                                          September 30, 2010

  Drawback of Duties, Taxes,   Material weakness: The Automated               Continue as a material
  and Fees                     Commercial System (ACS) lacked controls        weakness: Weaknesses continue
                               to detect and prevent excessive drawback       to exist related to the drawback
                               claims and payments, requiring inefficient     process in FY 2011. See control
                               compensating manual processes. The             finding letter A.
                               drawback review policies did not require
                               Drawback Specialists to review all related
                               drawback claims.

  Financial Reporting          Significant deficiency: CBP did not have       Significant deficiency was
                               an effective process in place to timely        remediated in FY 2011.
                               review and analyze contractor information
                               that could impact the financial statements.
                               CBP did not have proper segregation of
                               duties or sufficient review over manual
                               journal entries. Additionally, CBP did not
                               have sufficient controls or documented
                               policies in place to detect errors in its
                               population used to search for unrecorded
                               accounts payable.

  Property, Plant, and         Significant deficiency: Weaknesses             Continue as a significant
  Equipment (PP&E)             existed related to timely addressing the       deficiency: Weaknesses
                               valuation of the Secure Border Initiative      continue to exist related to
                               network (SBInet). As a result, a write-off     untimely transfer of CIP to fixed
                               was identified but was not timely recorded.    assets and recording PP&E
                               Weaknesses existed related to the untimely     additions, reclassifications, and
                               transfer of construction-in-progress (CIP)     retirements. Additionally,
                               to fixed assets and an understated value of    weaknesses continue to exist
                               assets that were placed into service.          with recording the percentage of
                               Several weaknesses existed related to          completion for certain
                               oversight of PP&E, such as not properly        construction projects. See
                               performing inventory counts, and recording     control finding B.
                               addition and retirement transactions
                               untimely or inaccurately.

  Inactive Obligations         Significant deficiency: Weaknesses             Significant deficiency was
                               existed in CBP’s policies and procedures       remediated in FY 2011.
                               related to the monitoring of obligations and
                               the timely deobligation of inactive
                               obligations.

  Entry Process – In-Bond      Significant deficiency: Several                Continue as a significant
                               weaknesses existed related to in-bond, such    deficiency: Weaknesses
                               as lack of official guidance related to        continued to exist related to in-
                               monitoring in-bond shipments at the port       bond, such as ACS system issues
                               level, lack of CBP Headquarters review of      preventing appropriate
                               the in-bond program, and the overall           Headquarters oversight,
                               inability to determine the effectiveness of    inadequate documentation of the
                                                                              monthly in-bond analysis,

                                                    III.1

                                                                                                   Exhibit III


                                         As Reported at
  Prior Year Condition                                                      Status as of September 30, 2011
                                       September 30, 2010
                            the in-bond program for CBP in its entirety.    inability to track air in-bonds,
                                                                            ineffective monitoring of the
                                                                            M02 and M07 reports, and Tin-
                                                                            Man system limitations. See
                                                                            control finding letter C, section
                                                                            1.

Entry Process –Trade        Significant deficiency: Weaknesses              Continue as a significant
Compliance Measurement      existed related to TCM, such as                 deficiency: Improvements were
(TCM)                       inconsistent procedures followed at the         identified; however, weaknesses
                            ports and development and/or                    continue to exist related to TCM,
                            implementation of policies and procedures       such as inconsistent use of data
                            to ensure reliability and accuracy of TCM       queries and reports by TCM
                            input results.                                  Coordinators, Automated
                                                                            Commercial Environment (ACE)
                                                                            reporting functionality
                                                                            limitations, inadequate training
                                                                            on ACE capabilities, inadequate
                                                                            monitoring and insufficient
                                                                            review guidance. See control
                                                                            finding letter C, section 2.

Entry Process – Bonded      Significant deficiency: Several                 Continue as a significant
Warehouse (BW) and          weaknesses existed related to the BW and        deficiency: Weaknesses continue
Foreign Trade Zones (FTZ)   FTZ processes, such as inadequate               to exist related to the BW and
                            monitoring and documentation, lack of risk      FTZ programs, such as
                            assessment guidance and inconsistent            inadequate monitoring and
                            procedures at the port level.                   documentation. See control
                                                                            finding letter C, section 3.

Information Technology      Significant deficiency: Weaknesses              Continue as a significant
(IT)                        existed related to IT general and application   deficiency: Weaknesses
                            controls and IT functionality. Specifically,    continue to exist related to IT
                            these included findings in the area of          general and application controls
                            general IT security planning and                and IT functionality. In FY
                            management, logical and physical access to      2011, the majority of prior year
                            programs and data, segregation of duties,       findings were unresolved and
                            software change management, business            several new findings were
                            continuity, and the ability of systems to       identified See control finding
                            accurately and completely track financial       letter D.
                            transactions.




                                                 III.2

                                                                                                        Index


Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

                  Criteria                                 Reference                        Report Exhibit

                                           Sections 111.23(a), 163.4, 191.51(b)(1)   I-A


  Code of Federal Regulations, Title 19    Sections 18.2(d), 18.6(b), 18.8(b)        II-C-1


                                           Sections 19.4(a), 146.3                   II-C-3

  Federal Information Security
                                                                                     II-D
  Management Act

  Office of Management and Budget (OMB)
  Circular No. A-123, Management’s                                                   I-A, II-B, II-C-1, II-C-3
  Responsibility for Internal Control

  OMB Circular No. A-127, Financial
                                                                                     II-D
  Management Systems

  OMB Circular No. A-130, Management of
                                                                                     II-D
  Federal Information Resources

  OMB Circular No. A-136, Financial
                                           Section II, Subsection 5.3                II-C-2
  Reporting Requirements

  Statement of Federal Financial
  Accounting Standards (SFFAS) No. 6,
                                                                                     II-B
  Accounting for Property, Plant, and
  Equipment

  SFFAS No. 7, Accounting for Revenue
  and Other Financing Sources and
                                           Section 69.2                              II-C-2
  Concepts for Reconciling Budgetary and
  Financial Accounting




                                                 Index.1
                                                                           1300 Pennsylvania. Avenue NW
                                                                           Washingto n, DC 20229



                                                             '~'           U.S. Customs and
                                                             If        ~   Border Protection
                                                               f'~"D'~~

    JAN 2 0 2012
MEMORANDUM FOR:               Anne L. Richards
                              Assistant Inspector General for Audits
                              Department of Homeland Security

FROM:                         Deborah J. Schilling
                              Chief Financial Officer
                              U.S. Customs and Border Protection

SUBJECT:                      Management Response to Independent Auditor' s Report on U.S.
                              Customs and Border Protection's Fiscal Year 2011 Financial
                              Statements

On behalf of U.S. Customs and Border Protection (CBP), I am responding to the Independent
Auditor' s Report on CBP ' s Fiscal Year (FY) 2011 Financial Statements, which is included in our
FY 2011 Perfonnance and Accountability Report.

I accept the independent public accounting firm ' s (KPMG LLP), unqualified opinion on CBP' s
FY 201 1 Financial Statements, which concluded that CBP ' s consolidated financial statements
are fairly presented in all material respects in conformity with accounting principles.

CBP has reviewed and concurs with the one material weakness and the three significant
deficiencies. Mission Action Plans (MAPs) outlining CBP ' s strategy to correct these conditions
were completed and provided to the Office of Financial Management, Department of Homeland
Security. CBP will continue to work to resolve all auditor identified weaknesses.

CBP appreciates the opportunity to review this year' s audit report and looks forward to
continuing our professional auditing relationship with your office. If you have any questions or
would like additional infonnation, please contact me at (202) 344-2300, or a member of your
staff may contact Jaye M. Williams, Executive Director, Financial Operations, at
(202) 344·2364.




Deborah J. Schilling
Appendix A
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      U.S. Customs and Border Protection

                      Commissioner
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
